Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       ACCURACY OF DRUG 

      CATEGORIZATIONS FOR 

       MEDICAID REBATES





                    Daniel R. Levinson

                     Inspector General 


                       July 2009

                     OEI-03-08-00300

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
E X E C U T I V E                    S U         M M A R Y
Δ    E X E C U T I V E                               S U M M A R Y


                  OBJECTIVE
                  To determine whether the drug categorizations used to calculate
                  Medicaid rebates are consistent with the categorizations listed in
                  national compendia.


                  BACKGROUND
                  Medicaid is a health insurance program for certain low-income and
                  medically needy people, jointly funded by Federal and State
                  governments. Currently, all 50 States and the District of Columbia
                  offer prescription drug coverage as part of their Medicaid benefit
                  packages. In 2007, Medicaid expenditures for prescription drugs totaled
                  $22 billion.

                  For Federal payments to be available for covered outpatient drugs
                  provided under Medicaid, sections 1927(a)(1) and (b)(1) of the Social
                  Security Act (the Act) require drug manufacturers to (1) enter into
                  rebate agreements with the Secretary of the Department of Health and
                  Human Services and (2) pay quarterly rebates to State Medicaid
                  agencies. In addition, covered outpatient drugs must be approved by
                  the Food and Drug Administration (FDA) for safety and effectiveness,
                  with certain exceptions, to qualify for Federal payments. As set forth in
                  section 1927(b)(3) of the Act, manufacturers must provide the Centers
                  for Medicare & Medicaid Services (CMS) with the average manufacturer
                  price (AMP), by national drug code (NDC), for each of their covered
                  outpatient drugs.

                  The rebate amount for a drug is based in part on whether it is
                  categorized as an innovator or a noninnovator product. For rebate
                  purposes, innovators include both single-source (typically a brand-name
                  product that has no available generic versions) and innovator multiple-
                  source (typically a brand-name product that has available generic
                  versions) products. Noninnovators are typically generic versions of
                  multiple-source drugs. Manufacturers provide CMS with the drug
                  categorizations for the NDCs of their covered outpatient drugs in
                  conjunction with AMP data. Innovator products are generally subject to
                  higher rebates than noninnovator products.

                  We compared drug categorizations in CMS’s fourth-quarter 2007 AMP
                  file (AMP file) to drug categorizations in two national compendia for
                  more than 17,000 NDCs. National drug compendia are databases
OEI-03-08-00300   A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   i
E X E C U T I V E                    S U         M M A R Y


                  compiled by private companies using data from such sources as drug
                  manufacturers and FDA. We then conducted a manual review of the
                  drug categorizations for 75 nonmatching NDCs associated with high
                  Medicaid expenditures, using information obtained from FDA’s Drug
                  Information directories, FDA staff, and manufacturer Web sites.
                  Further, we determined the percentage of NDCs with Medicaid
                  utilization in the fourth quarter of 2007 that were not included in that
                  quarter’s AMP file.


                  FINDINGS
                  Most AMP file drug categorizations matched the categorizations in
                  two national compendia. For 90 percent of the 17,121 NDCs in our
                  comparison, the drug categorizations in the fourth-quarter 2007 AMP
                  file were the same as the categorizations in the national compendia.
                  However, drug categorizations did not match for 1,730 NDCs. Overall,
                  these nonmatching NDCs were associated with just 3 percent of total
                  fourth-quarter 2007 Medicaid expenditures for the NDCs under review.

                  A manual review of 75 of the 1,730 nonmatching NDCs found that 35 of
                  the 75 nonmatching NDCs included in the manual review appear to
                  have been correctly categorized in the AMP file under Medicaid rebate
                  program requirements. This means that the drugs’ innovator status in
                  the AMP file matched the drugs’ innovator status found in FDA’s Drug
                  Information directories.

                  Another 8 of the 75 drugs were associated with NDCs that appear to
                  have been incorrectly categorized in the AMP file. These drugs were
                  categorized as noninnovators in the AMP file but had been approved
                  through new drug applications by FDA. It appears that under Medicaid
                  rebate program requirements, these NDCs should have been
                  categorized by their manufacturers as innovators. Because
                  manufacturers pay smaller rebates for noninnovator drugs, States may
                  not be receiving the rebates to which they are entitled for these eight
                  NDCs. Fourth-quarter 2007 Medicaid expenditures for the drugs
                  represented by these eight NDCs totaled nearly $14 million.

                  The remaining 32 nonmatching NDCs in the manual review were for
                  drugs not listed in FDA’s Drug Information directories. According to
                  FDA, none of the drugs associated with these NDCs had been approved.
                  Medicaid paid $20 million for these drugs in the fourth quarter of 2007.


OEI-03-08-00300   A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   ii
E X E C U T I V E                    S U         M M A R Y


                  A substantial number of NDCs were excluded from the drug
                  categorization comparison, primarily because of missing data. We
                  were unable to compare drug categorizations for 42 percent (12,557 of
                  29,678) of NDCs with fourth-quarter 2007 Medicaid utilization for
                  several reasons: (1) the NDCs were not listed in the AMP file, (2) the
                  NDCs were not listed in one or both of the two national drug compendia,
                  or (3) the NDCs had drug categorization that differed in the two
                  national compendia. These NDCs accounted for less than 10 percent of
                  total Medicaid reimbursement for prescription drugs in the fourth
                  quarter of 2007.

                  We excluded 65 percent (8,101 of 12,557) of these NDCs from the
                  comparison of drug categorizations because data were missing from the
                  AMP file. Over half of these NDCs were also not listed in the previous
                  quarter’s AMP file. For the remaining NDCs excluded from this
                  comparison, 24 percent (3,031 of 12,557) were not listed in one or both of
                  the national compendia. An additional 11 percent (1,425 of 12,557) of
                  these NDCs were excluded because their innovator status in one
                  compendium did not match their innovator status in the other.


                  RECOMMENDATIONS
                  We found that for the purposes of Medicaid drug rebates, manufacturers
                  typically categorize their drugs in the same way as national compendia.
                  Based on our review, most drug categorizations used to calculate
                  Medicaid rebates appear to be correct. However, our manual review
                  identified (1) a potential problem with Medicaid payment for drugs that
                  do not have FDA approval and (2) instances in which certain drugs
                  appear to have been categorized incorrectly in the AMP file, potentially
                  resulting in a loss of rebates for States. Because we were able to
                  identify these specific problems only for drugs that were included in our
                  manual review of 75 nonmatching NDCs, it is likely that our findings
                  understate the number of drugs that fit into each category. We will
                  provide CMS with a list of the drugs that we identified as being
                  unapproved or potentially miscategorized.

                  Finally, we were not able to compare drug categorizations for a large
                  number of NDCs, primarily because AMP data were missing. The
                  absence of AMP data would likely inhibit CMS from calculating unit
                  rebate amounts in a timely manner. In these cases, it is the States’
                  responsibility to collect any amounts that are owed.

OEI-03-08-00300   A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   iii
E X E C U T I V E                    S U         M M A R Y


                  To address these issues, we recommend that CMS:

                  Work closely with FDA to identify any potentially problematic Medicaid
                  payments for drugs that have not been approved by FDA.

                  Work with manufacturers to determine the correct categorizations of
                  the drugs that we identified as being potentially miscategorized in the
                  AMP file and assist States in collecting any unpaid rebates that they are
                  owed.

                  Continue to explore and undertake a range of efforts to ensure that
                  drug manufacturers are submitting the required AMP data in a timely
                  manner, including collaborating with the Office of Inspector General on
                  administrative remedies for noncompliance.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its comments on the draft report, CMS did not indicate whether it
                  concurred with OIG’s three recommendations. However, CMS did note
                  that it has taken and will continue to take steps related to each of OIG’s
                  recommendations.

                  CMS responded to our recommendation on potentially unapproved
                  drugs by stating that it has worked and will continue to work closely
                  with FDA to identify potentially problematic Medicaid payments for
                  drugs that do not meet the definition of a covered outpatient drug. In
                  its response to our recommendation on potentially miscategorized
                  drugs, CMS stated that it is contacting the manufacturers for which
                  OIG identified a potential problem with drug categorizations. CMS
                  responded to our recommendation on timely reporting of AMP data by
                  stating that it will continue to ensure that drug manufacturers are
                  submitting the required AMP data in a timely manner.

                  We ask that CMS indicate in its final management decision whether
                  it concurs with each of our recommendations. Ongoing OIG work will
                  further evaluate CMS’s and FDA’s ability to identify and remove
                  drugs that may not be eligible for coverage under the Medicaid drug
                  rebate program. In addition, OIG is exploring potential actions
                  against manufacturers that fail to provide AMP data in a timely
                  manner.




OEI-03-08-00300   A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   iv
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    Most AMP file drug categories matched the drug categories in 

                    two national compendia . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                    A substantial number of NDCs were excluded from the drug 

                    category comparison, primarily because of missing data . . . . . . . 13 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                    Agency Comments and Office of Inspector General Response . . . 16 



         APPENDIX              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                    A: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

Δ    I N T R O D U C T I O N


                  OBJECTIVE
                  To examine whether the drug categorizations used to determine
                  Medicaid rebates are consistent with the categorizations listed in
                  national compendia.


                  BACKGROUND
                  Medicaid Prescription Drug Coverage
                  Medicaid is a health insurance program for certain low-income and
                  medically needy people, jointly funded by Federal and State
                  governments. Individual States establish eligibility requirements,
                  benefit packages, and payment rates for their Medicaid programs under
                  broad Federal standards. Currently, all 50 States and the District of
                  Columbia offer prescription drug coverage as part of their Medicaid
                  benefit packages. In 2007, Medicaid expenditures for prescription drugs
                  totaled nearly $22 billion. 1
                  Medicaid Drug Reimbursement
                  Medicaid beneficiaries typically receive covered drugs through
                  pharmacies, which are reimbursed for these drugs by State Medicaid
                  agencies. Generally, covered outpatient drugs must be approved by the
                  Food and Drug Administration (FDA) for safety and effectiveness, with
                  certain exceptions, to qualify for Federal payments. 2 Reimbursement
                  for covered outpatient prescription drugs is based on national drug
                  codes (NDC), which are 11-digit identifiers that indicate the
                  manufacturer, dosage form, and package size of each drug product.
                  Federal regulations require, with certain exceptions, that each State’s
                  reimbursement for a drug not exceed the lower of its estimated




                     1 Centers for Medicaid & Medicare Services (CMS), “State Drug Utilization Data.”
                  Available online at http://www.cms.hhs.gov/MedicaidDrugRebateProgram/SDUD/list.asp.
                  Accessed on June 16, 2008. The figure does not include any rebates collected by States
                  through the Medicaid drug rebate program.
                     2 Exceptions include drugs which were commercially used or sold in the United States
                  before the date of the enactment of the Drug Amendments of 1962; drugs for which the
                  Secretary has determined there is a compelling justification for their medical need; drugs
                  for which the Secretary has not issued a notice of an opportunity for a hearing on a
                  proposed order of the Secretary to withdraw approval of an application because the
                  Secretary has determined that the drug is less than effective; and drugs that have not been
                  subject to a final determination that they are new drugs.



OEI-03-08-00300   A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   1
I N T R O D       U C T           I O N


                   acquisition cost plus a reasonable dispensing fee or the provider’s usual
                   and customary charge to the public. 3
                   CMS allows States flexibility when defining estimated acquisition cost.
                   Each State is required to submit a Medicaid State plan to CMS
                   describing its reimbursement methodology for covered drugs. States
                   use a variety of mechanisms when setting drug reimbursement
                   amounts. Currently, most States base their calculations of estimated
                   acquisition cost on a drug’s average wholesale price (AWP) discounted
                   by a certain percentage or its wholesale acquisition cost plus a certain
                   percentage. 4 For some multiple-source drugs, States also use the
                   Federal upper limit and/or State maximum allowable cost programs in
                   determining reimbursement amounts. 5
                   Medicaid Drug Rebate Program
                   For Federal payments to be available for covered outpatient drugs
                   provided under Medicaid, sections 1927(a)(1) and (b)(1) of the Social
                   Security Act (the Act) require drug manufacturers to enter into rebate
                   agreements with the Secretary of the Department of Health and Human
                   Services and pay quarterly rebates to State Medicaid agencies. Under
                   these rebate agreements and pursuant to section 1927(b)(3) of the Act,
                   manufacturers must provide CMS with the average manufacturer price
                   (AMP) by NDC for each of their covered outpatient drugs. As defined in
                   section 1927(k)(1) of the Act, the AMP is the average price paid to the
                   manufacturer of the drug in the United States by wholesalers for drugs
                   distributed to the retail pharmacy class of trade. The AMP is
                   determined without regard to customary prompt pay discounts extended
                   to wholesalers.

                   The AMP is calculated as a weighted average of prices for all of the
                   manufacturer’s package sizes of a drug sold during a given time period
                   and is reported for the lowest identifiable quantity of the drug


                      3 42 CFR § 447.512.
                      4 CMS, “Medicaid Prescription Reimbursement Information by State—Quarter Ending
                   March 2008.” Available online at
                   http://www.cms.hhs.gov/MedicaidDrugRebateProgram/downloads/RxReimbursementRateM
                   arch2008.pdf. Accessed on June 13, 2008.
                      5 States use the Federal upper limit and/or State maximum allowable cost programs to
                   establish ceiling prices for certain multiple-source drugs. CMS has established Federal
                   upper limit amounts for more than 500 drugs. Individual States determine the types of
                   drugs included in their maximum allowable cost programs and the methods by which the
                   maximum allowable cost for a drug is calculated.



OEI-03-08-00300    A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   2
I N T R O D       U C T           I O N


                   (e.g., 1 milligram, 1 milliliter, 1 tablet, 1 capsule). Currently,
                   manufacturers submit AMP data on monthly and quarterly bases, with
                   submissions due 30 days after the end of the rebate period.

                   In the Medicaid drug rebate program, drugs are generally categorized as
                   one of three types: single-source, innovator multiple-source, or
                   noninnovator multiple-source. Manufacturers provide CMS with the
                   drug category for each of their NDCs in conjunction with AMP data.
                   Generally, pursuant to section 1927(k)(7)(A) of the Act and
                   42 CFR § 447.502, (1) a single-source drug is a covered outpatient drug
                   produced or distributed under an original new drug application
                   approved by FDA, including a drug product marketed by any cross-
                   licensed producers or distributors operating under the new drug
                   application; (2) an innovator multiple-source drug is a multiple-source
                   drug that was initially marketed under an original new drug application
                   approved by FDA; and (3) a noninnovator multiple-source drug is a
                   multiple-source drug that is not an innovator multiple-source drug. 6 7
                   In general terms, a single-source drug would typically be a
                   brand-name product with no available generic versions. An innovator
                   multiple-source drug would typically be a brand-name product that has
                   available generic versions. A noninnovator multiple-source drug would
                   simply be a generic version of any multiple-source product.

                   In addition to AMP, section 1927(b)(3) of the Act requires
                   manufacturers of single-source and innovator multiple-source drugs to
                   provide CMS with the best price available for each of its covered
                   outpatient drugs. Best price is generally defined as the lowest price
                   available from the manufacturer during the rebate period to any
                   wholesaler, retailer, provider, health maintenance organization,
                   nonprofit entity, or governmental entity within the United States, with
                   certain exceptions. 8 Manufacturers of noninnovator multiple-source



                      6 The regulation (42 CFR § 447.502) also generally provides that for drugs that entered
                   the market in 1962 or later, a noninnovator multiple-source drug is a drug marketed under
                   an abbreviated new drug application; for drugs that entered the market before 1962, it is a
                   drug not originally marketed under an original new drug application.
                      7 Pursuant to 42 CFR § 447.502, single-source and innovator multiple-source drugs also
                   include covered outpatient drugs approved under product license approvals, establishment
                   license approvals, or antibiotic drug approvals. Single-source drugs also include covered
                   outpatient drugs approved under a biological license application.
                      8 Section 1927(c)(1)(C)(i) of the Act.




OEI-03-08-00300    A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   3
I N T R O D       U C T           I O N


                   drugs are not required to provide their best price. CMS maintains AMP
                   and best price data as part of its quarterly AMP files (AMP file).
                   Medicaid Drug Rebate Calculations
                   The amount of rebates owed by manufacturers to State Medicaid
                   agencies for a drug is determined by two figures: (1) the unit rebate
                   amount of the drug and (2) the number of units of the drug reimbursed
                   by the State in a given quarter. Pursuant to section 1927(c) of the Act,
                   the formula used to determine the unit rebate amount depends on the
                   drug category reported by the manufacturer. Under Medicaid rebate
                   law, unit rebate amounts for single-source and innovator multiple-
                   source drugs are calculated using the same formula. Therefore, for the
                   purposes of this report, both single-source and innovator multiple-
                   source drugs are hereinafter referred to as “innovator” products, while
                   noninnovator multiple-source drugs are referred to as “noninnovators.”
                   For innovator drugs, the unit rebate amount equals the greater of
                   15.1 percent of the AMP or the difference between the AMP and best
                   price. 9 For noninnovator drugs, the unit rebate amount is 11 percent of
                   the AMP. 10
                   At the end of every quarter, CMS calculates a unit rebate amount for
                   each NDC included in the Medicaid drug rebate program and provides
                   this amount to State Medicaid agencies. To determine total rebates due
                   from manufacturers, the unit rebate amount is multiplied by the total
                   number of units of the NDC reimbursed by the State during the
                   quarter.

                   In some cases, States may have reimbursed for drugs that do not have
                   AMPs reported by the manufacturers in the given quarter. As a result,
                   CMS is unable to calculate unit rebate amounts for the affected NDCs.
                   However, States are still owed rebates for these drugs. CMS has
                   instructed States to include the NDCs that have unit rebate amounts of
                   zero because AMP data are missing or have been rejected as part of the
                   quarterly rebate statement sent to manufacturers, listing the number of
                   units of the NDC reimbursed by the State in the quarter. 11 The


                      9 Section 1927(c)(1)(A) of the Act.

                      10 Section 1927(c)(3) of the Act. 

                      11 CMS, “Medicaid Drug Rebate Program Bulletin for Participating Drug

                   Manufacturers,” Release Number 69. Available online at
                   http://www.cms.hhs.gov/MedicaidDrugRebateProgram/03_DrugMfrReleases.asp. Accessed
                   on December 12, 2008.



OEI-03-08-00300    A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   4
I N T R O D       U C T           I O N


                   manufacturers calculate their own unit rebate amounts for the NDCs
                   according to Medicaid drug rebate program rules and determine the
                   total rebates owed based on the utilization provided. 12 However,
                   according to CMS staff, manufacturers do not always follow through
                   with this process, causing States to expend substantial efforts to recoup
                   the unpaid amounts. 13 14
                   Drug Compendia
                   Drug compendia are databases compiled by private companies using
                   data from such sources as drug manufacturers and FDA. National drug
                   compendia are references for health care professionals that provide
                   access to drug-pricing and drug category data. Two commonly used
                   drug compendia on the market today are the Red Book (published by
                   Thomson Healthcare) and the First DataBank National Drug Data File
                   (First DataBank) (published by the Hearst Corporation).
                   FDA Drug Information Directories
                   FDA publishes information via several sources regarding drugs that it
                   has approved. For example, FDA’s “National Drug Code Directory”
                   (NDC Directory) is supposed to list the application numbers for NDCs
                   associated with drugs approved by FDA. 15 16 However, previous OIG
                   work has found the NDC Directory to be incomplete, primarily because
                   of insufficient reporting by drug manufacturers. 17 In addition, FDA




                      12 CMS, “Medicaid Drug Rebate Program Bulletin for Participating Drug
                   Manufacturers,” Release Number 38. Available online at
                   http://www.cms.hhs.gov/MedicaidDrugRebateProgram/03_DrugMfrReleases.asp. Accessed
                   on October 24, 2008.
                     13 Because States are responsible for tracking collections and reporting those amounts to
                   CMS, the responsibility falls on States to collect the rebates owed to them when
                   manufacturers do not follow through with this process.
                      14 Previous Office of Inspector General (OIG) work found that many States do not receive
                   all possible drug rebates from manufacturers because of missing AMP data.
                      15 Available online at http://www.fda.gov/cder/ndc/index.htm. Accessed on
                   October 10, 2008.
                      16 FDA inputs the NDC and the information submitted as part of the listing process into
                   a database known as the Drug Registration and Listing System (DRLS). Several times a
                   year, FDA extracts some of the information from the DRLS database (currently, properly
                   listed marketed prescription drug products and insulin) and publishes that information in
                   the NDC Directory.
                     17 OIG, “The Food and Drug Administration’s National Drug Code Directory,”
                   OEI-06-05-00060, August 2006.



OEI-03-08-00300    A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   5
I N T R O D       U C T           I O N


                   recently stated that the NDC directory is neither fully accurate nor
                   complete. 18
                   The NDC Directory does not indicate whether the application numbers
                   are for new drug applications (i.e., represent innovator drugs) or
                   abbreviated new drug applications (i.e., represent noninnovator drugs).
                   The FDA Approved Drug Products directory (Drugs@FDA) provides
                   each drug’s approval history, including whether it was approved under
                   a new drug application or an abbreviated new drug application;
                   however, it does not list any of this information by NDC. 19 Drugs@FDA
                   is searchable by application number, proprietary drug name, and active
                   ingredient; therefore, with information gathered from FDA’s NDC
                   Directory, Drugs@FDA can be used to identify NDCs as innovators or
                   noninnovators.


                   METHODOLOGY
                   Scope and Data Collection
                   Scope. We reviewed only NDCs with Medicaid utilization in the fourth
                   quarter of 2007 (October 1 to December 31). There were 29,678 NDCs
                   with Medicaid utilization in the quarter under review. We were able to
                   compare drug categorizations only if NDCs were present in all data
                   sources. Therefore, any NDCs that were not listed in the fourth-quarter
                   2007 AMP file or either of the two national drug compendia (Red Book
                   and First DataBank) were excluded from our comparison. In addition,
                   we excluded drugs whose drug categorizations differed in the two
                   national compendia (i.e., drugs that were considered innovators in Red
                   Book and noninnovators in First DataBank or vice versa). As a result of
                   these steps, our comparison of drug categorizations included
                   17,121 NDCs. These 17,121 NDCs accounted for 91 percent ($4.9 billion
                   of $5.4 billion) of total Medicaid reimbursement for prescription drugs
                   in the fourth quarter of 2007.

                   Data collection. We identified all NDCs with Medicaid reimbursement
                   in the fourth quarter of 2007 using CMS’s National Drug Utilization
                   Database, which contains the Medicaid utilization and expenditures by

                     18 FDA response to Representative Edward J. Markey. Available online at
                   http://www.ascp.com/medicarerx/upload/FDAltrMerkey.pdf. Accessed on
                   November 17, 2008.
                     19 FDA, “Drugs@FDA: Frequently Asked Questions.” Available online at
                   http://www.fda.gov/cder/drugsatfda/FAQ.htm. Accessed on September 22, 2008.



OEI-03-08-00300    A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   6
I N T R O D       U C T           I O N


                   NDC. 20 In February 2008, we obtained the Medicaid drug rebate
                   fourth-quarter 2007 AMP file from CMS. We obtained variables that
                   identify drug categorizations from fourth-quarter 2007 versions of two
                   national drug compendia (Red Book and First DataBank). We also
                   obtained information from FDA’s Drug Information directories (NDC
                   Directory and Drugs@FDA) for use during our manual review of drug
                   categorizations.
                   Data Analysis
                   Compendia data. Drug compendia do not contain individual drug
                   category variables that identify NDCs as single-source, innovator
                   multiple-source, or noninnovator multiple-source drugs, as defined by
                   Medicaid drug rebate law. Therefore, we developed our own variable
                   based on a combination of other variables contained in the compendia.
                   For both compendia, we used the variable that identifies NDCs as
                   brand-name or generic in conjunction with a variable that identifies
                   NDCs as single-source or multiple-source to create our comparison
                   variable. We used the following criteria for our categories:

                   1.	 NDCs categorized as brand-name and single-source were considered
                       single-source and therefore innovators for purposes of this analysis.

                   2.	 NDCs categorized as brand-name and multiple-source were
                       considered innovator multiple-source and therefore innovators for
                       purposes of this analysis.

                   3.	 NDCs categorized as generic and multiple-source were considered
                       noninnovator multiple-source and therefore noninnovators for
                       purposes of this analysis.
                   As previously stated, to avoid potential confusion, NDCs for which
                   drug categorizations differed in the two national compendia were
                   excluded from further analysis of drug categorizations. 21
                   Comparison of drug categorizations. We compared the drug
                   categorizations listed in national compendia to the drug categorizations
                   in the AMP file for the 17,121 NDCs under review. We placed NDCs for



                     20 CMS, “State Drug Utilization Data.” Available online at
                   http://www.cms.hhs.gov/MedicaidDrugRebateProgram/SDUD/list.asp. Accessed on
                   May 20, 2008.
                     21 We excluded 1,425 NDCs from our analysis because the drug categorizations in Red
                   Book did not match the drug categorizations in First DataBank.



OEI-03-08-00300    A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   7
I N T R O D       U C T           I O N


                   which the rebate categorizations in the AMP file did not match the
                   compendia categorizations into one of two groups:

                   1.	 NDCs categorized as noninnovator drugs in the AMP file but
                       categorized as innovator drugs in drug compendia.

                   2.	 NDCs categorized as innovator drugs in the AMP file but
                       categorized as noninnovator drugs in drug compendia.

                   We determined the potential effect of miscategorizations by calculating
                   (1) the percentage of NDCs and (2) the percentage of total Medicaid
                   reimbursement in the fourth quarter of 2007 associated with each group
                   (i.e., innovators in the AMP file, noninnovators in drug compendia, and
                   vice versa).

                   Manual review. In addition to comparing Medicaid rebate
                   categorizations to the two drug compendia, we conducted a manual
                   review of 75 high-expenditure, nonmatching NDCs to address concerns
                   that neither the AMP file nor drug compendia are completely accurate
                   and reliable sources of drug category data. These 75 NDCs consisted of
                   the 50 NDCs categorized as noninnovators in the AMP file (but
                   innovators in compendia) and the 25 NDCs categorized as innovators in
                   the AMP file (but noninnovators in compendia) with the highest
                   expenditures in the fourth quarter of 2007.

                   We identified reasons for any differences in drug categorizations by
                   examining drug approval status and drug categorization data in FDA’s
                   Drug Information directories. For each of the 75 NDCs included in our
                   manual review, we used a two-step method to determine the correct
                   drug category. First, we used FDA’s NDC Directory to search for the
                   product’s application number. Because the application number alone
                   does not identify an NDC as innovator or noninnovator, we then used
                   the Drugs@FDA directory to identify whether the application numbers
                   belonged to drugs that were approved under new drug applications
                   (i.e., innovators) or abbreviated new drug applications
                   (i.e., noninnovators). We considered the drug categorization in the AMP
                   file to be correct only when its drug category corresponded to the
                   appropriate approval status in the FDA directories. 22 A small number


                      22 Generally, under the Medicaid drug rebate program, drugs categorized as innovators
                   have new drug applications and drugs categorized as noninnovators have abbreviated new
                   drug applications (with certain exceptions). Section 1927(k)(7)(A) of the Act and
                   42 CFR § 447.502.



OEI-03-08-00300    A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   8
I N T R O D       U C T           I O N


                   of drugs associated with the 75 NDCs under review were not listed in
                   FDA’s NDC Directory but were listed in Drugs@FDA. Although
                   Drugs@FDA does not list drugs by NDC, we were able to verify the
                   approval status of these NDCs using a combination of product and
                   manufacturer data from the database. 23
                   For some of the NDCs included in our manual review, we were unable
                   to locate information in any of FDA’s online sources. Therefore, a third
                   step was necessary. We provided FDA staff with a list of these NDCs
                   and obtained further information about the approval status and
                   categorization for each of the associated drugs. We also obtained
                   information about these NDCs from their manufacturers’ Web sites.
                   Drugs not included in the AMP file and/or compendia. For some NDCs, we
                   were unable to compare the Medicaid drug categorizations to those in the
                   national compendia because the data were missing from at least one of the
                   files. First, we calculated the percentage of NDCs with Medicaid
                   utilization in the fourth quarter of 2007 that were not included in that
                   quarter’s AMP file. 24 We also determined whether any of the NDCs with
                   missing fourth-quarter 2007 AMPs did not appear in the third-quarter
                   2007 AMP file. Then, we calculated the percentage of NDCs with
                   Medicaid utilization in the fourth quarter of 2007 that were missing from
                   one or both of the national compendia. Finally, we calculated the
                   percentage of NDCs with Medicaid utilization in the fourth quarter of
                   2007 that were listed in both compendia, but the drug categorizations
                   differed in each source.
                   Limitations
                   The editorial policies of national drug compendia permit submission of
                   data from manufacturers, distributors, Government publications,
                   internal research, and medical literature as sources of drug information.
                   However, publishers of compendia do not perform formal data reviews
                   for every new release. We did not verify the accuracy of data provided
                   by First DataBank or Red Book. In addition, we did not verify the
                   accuracy of the data provided by CMS or FDA. More current AMP data
                   may have become available after we completed our analysis. For


                     23 Drugs@FDA is searchable by application number, proprietary drug name, or active
                   ingredient.
                     24 According to CMS Drug Rebate Program Release No. 69, individual State Medicaid
                   agencies are responsible for collecting rebates for NDCs with Medicaid utilization that are
                   not included in the AMP file.



OEI-03-08-00300    A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   9
I N T R O D       U C T           I O N


                   example, the fourth-quarter 2007 AMP file provided to us by CMS on
                   February 2, 2008, may have been updated after our analysis was
                   completed.

                   The eligibility for Medicaid payments of the unapproved drugs
                   identified by our manual review is beyond the scope of this study. We
                   did not determine whether any Federal funds were used to pay for
                   drugs that were not approved by FDA.
                   Standards
                   This study was conducted in accordance with the “Quality Standards for
                   Inspections” issued by the President’s Council on Integrity and
                   Efficiency and the Executive Council on Integrity and Efficiency (now
                   the Council of the Inspectors General on Integrity and Efficiency).




OEI-03-08-00300    A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   10
     F     I N D I N G                S
  Δ            F I N D I N G S

Most AMP file drug categories matched the drug                          For 90 percent of the 17,121 NDCs in
         categories in two national compendia                           our comparison, the drug
                                                                        categorizations in the fourth-quarter
                                     2007 AMP file were the same as the categorizations in the national
                                     compendia. Drugs with matching categorizations accounted for
                                     97 percent of Medicaid expenditures for the NDCs under review. In the
                                     AMP file, 29 percent of the 17,121 NDCs under review were categorized
                                     as innovators, and 71 percent were categorized as noninnovators.
                                     However, as shown in Table 1, there were 1,730 NDCs (10 percent of
                                     NDCs in our comparison) whose drug categorizations in the AMP file
                                     did not match the drug categorizations in the national compendia. The
                                     nonmatching NDCs represented 12 percent of the NDCs categorized as
                                     innovators in the AMP file and 9 percent of the NDCs categorized as
                                     noninnovators in the AMP file. Overall, these nonmatching NDCs were
                                     associated with 3 percent ($146 million of $4.9 billion) of the total
                                     fourth-quarter 2007 Medicaid expenditures for the NDCs under review.
  Table 1. Comparison of Drug Categorizations in the AMP File and Two National Drug Compendia

  AMP Drug Categorization                                Number of NDCs That                      Number of NDCs That Did                   Total Number of NDCs by
                                                     Matched Compendia Drug                         Not Match Compendia                               AMP File Drug
                                                               Categorization                         Drug Categorization                            Categorization
  Innovator (single-source, innovator
  multiple-source)                                                                  4,389                                            585                        4,974


  Noninnovator                                                                    11,002                                            1,145                      12,147

     Total                                                                        15,391                                            1,730                      17,121

  OIG analysis of data contained in AMP file, Red Book, First DataBank.



                                     A manual review of 75 of the 1,730 nonmatching NDCs indicates that
                                     many drugs identified as such in Table 1 may have been correctly
                                     categorized for rebate purposes. 25 As Table 2 illustrates, several factors
                                     contributed to nonmatching drug categorizations in the AMP file and
                                     national compendia, including (1) questionable categorizations in
                                     compendia (i.e., correct categorizations in the AMP file), 26 (2) incorrect


                                        25 Our manual review comprised the top 50 nonmatching NDCs (by total Medicaid
                                     expenditures in the fourth quarter of 2007) categorized as noninnovators in the AMP file
                                     and the top 25 nonmatching NDCs (by total Medicaid expenditures in the fourth quarter of
                                     2007) categorized as innovators in the AMP file.
                                       26 Because compendia are not required to categorize drugs according to Medicaid rebate
                                     law, it would be erroneous to refer to these cases as “incorrect” in the compendia.



         OEI-03-08-00300             A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S                         11
   F     I N D I N G               S


                                  categorizations in the AMP file, and (3) the presence of unapproved
                                  drugs in the AMP and Medicaid reimbursement files.
Table 2. Reasons for Nonmatching Drug Categorizations Between AMP File and National Compendia

AMP Drug Categorization               Questionable in                          Incorrect in AMP                     Unapproved Drugs   Total Nonmatching
                                 Compendia (Correct in                                       File                                         NDCs Reviewed
                                            AMP File)
Innovator (single-source,
innovator multiple-source)                                    25                                        0                          0                 25


Noninnovator                                                  10                                        8                         32                 50


   Total                                                      35                                        8                         32                 75

OIG analysis of data contained in AMP file, Red Book, First DataBank, Drugs@FDA, and NDC Directory.



                                 Nearly half of nonmatching NDCs that we reviewed appear to have been
                                 categorized correctly in the AMP file
                                 Thirty-five of the seventy-five nonmatching NDCs that underwent
                                 manual review appear to have been correctly categorized in the AMP
                                 file according to Medicaid drug program requirements
                                 (i.e., categorizations in the compendia were questionable). This number
                                 includes all 25 nonmatching NDCs categorized as innovators in the
                                 AMP file (but noninnovators in the compendia). Each of the drugs
                                 represented by these NDCs had been approved through a new drug
                                 application according to Drugs@FDA.

                                 Further, 10 of 50 nonmatching NDCs categorized as noninnovators in
                                 the AMP file (but innovators in the compendia) had been approved
                                 through abbreviated new drug applications, according to Drugs@FDA.
                                 According to Medicaid drug program requirements, it appears that
                                 these NDCs were also categorized correctly in the AMP file.
                                 A small number of nonmatching NDCs that we reviewed resulted from
                                 apparent incorrect drug categorizations in the AMP file
                                 Eight of seventy-five NDCs that underwent manual review appear to
                                 have been incorrectly categorized in the AMP file. All eight of these
                                 NDCs were categorized as noninnovators in the AMP file but had been
                                 approved through new drug applications according to Drugs@FDA. It
                                 appears that under Medicaid drug program requirements, these NDCs
                                 should have been categorized by their manufacturers as innovators.
                                 Because manufacturers pay smaller rebates for noninnovator drugs,
                                 States may not be receiving the amount of rebates to which they are
                                 entitled for these eight NDCs. Fourth-quarter 2007 Medicaid


       OEI-03-08-00300            A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S                 12
F     I N D I N G      S


                      expenditures for the drugs represented by these eight NDCs totaled
                      nearly $14 million.
                      Over 40 percent of nonmatching NDCs that we reviewed were for drugs not
                      approved by FDA
                      Thirty-two of the seventy-five NDCs (43 percent) that underwent
                      manual review corresponded to drugs not listed in FDA’s Drug
                      Information directories. Each of these nonmatching NDCs was
                      categorized as a noninnovator in the AMP file and an innovator in the
                      compendia. According to FDA, none of the drugs associated with these
                      NDCs had been approved. Based on information obtained from FDA
                      staff and manufacturer Web sites, the unapproved drugs indentified by
                      our manual review were enzyme-replacement products awaiting new
                      drug application approvals, multivitamins (prenatal or otherwise),
                      cough suppressants, antihistamines, or hydrating lotions. Medicaid
                      paid $20 million for drugs associated with these 32 NDCs in the fourth
                      quarter of 2007. 27
                                                              We were unable to compare drug
A substantial number of NDCs were excluded
                                                              categorizations for 42 percent
from the drug category comparison, primarily                  (12,557 of 29,678) of NDCs with
                    because of missing data                   fourth-quarter 2007 Medicaid
                      utilization for several reasons: (1) the NDCs were not listed in the AMP
                      file, (2) the NDCs were not listed in one or both of the two national drug
                      compendia, or (3) the NDCs had drug categorizations that differed in
                      the two national compendia. NDCs in these three groups accounted for
                      less than 10 percent of total Medicaid reimbursement for prescription
                      drugs in the fourth quarter of 2007.
                      Lack of data in the AMP file accounted for most of the excluded NDCs
                      We excluded 65 percent (8,101 of 12,557) of the NDCs from the
                      comparison of drug categorizations because data were missing from the
                      AMP file. Fourth-quarter 2007 payments for these NDCs totaled
                      $338 million. More than half of these NDCs were also not listed in the
                      previous quarter’s AMP file. According to CMS staff, States sometimes
                      face difficulty in obtaining the rebates owed for products with late or
                      missing AMP data.



                        27 Generally, for Medicaid Federal financial participation to be available, most covered
                      outpatient drugs must be approved by FDA for safety and effectiveness, with certain
                      exceptions.



    OEI-03-08-00300   A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   13
   F     I N D I N G                 S


                                    For the remaining NDCs excluded from this comparison,
                                    3,031 (24 percent of excluded NDCs) were not listed in one or both of the
                                    national compendia. 28 These NDCs accounted for $60 million in
                                    Medicaid payments in the fourth quarter of 2007. An additional
                                    1,425 NDCs (11 percent of excluded NDCs) were excluded because their
                                    innovator status in one compendium did not match their innovator
                                    status in the other. These NDCs accounted for $99 million in Medicaid
                                    payments in the fourth quarter of 2007. Table 3 provides a statistical
                                    breakdown of the reasons we excluded NDCs from our comparison of
                                    drug categorizations.
Table 3. Reasons for Exclusion of NDCs From the Drug Categorization Comparison

Reason for Exclusion From Analysis                                                      Number of NDCs Excluded                    Medicaid Expenditures in the
                                                                                                                                        Fourth Quarter of 2007

NDC missing from AMP file                                                                                              8,101                      $338,017,282


NDC not listed in one compendium or both compendia                                                                     3,031                       $59,823,807


NDC’s drug categorization differed in the two national
compendia                                                                                                              1,425                       $99,353,525

   Total                                                                                                              12,557                      $497,194,614
OIG analysis of data contained in AMP file, Red Book, First DataBank, and Medicaid’s fourth-quarter 2007 National Utilization File.

Note: Medicaid expenditures are rounded to the nearest dollar.




                                      28 Of the 3,031 NDCs excluded from our comparison because compendia data were
                                    missing, 2,916 were listed in one of the two national compendia. Only 115 of the NDCs
                                    were missing from both.



       OEI-03-08-00300              A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S                       14
Δ    R E C O M M E N D A T I O N S




                  For this review, we compared drug categorizations in the fourth-quarter
                  2007 AMP file to those in two national drug compendia. Because each
                  drug’s innovator status determines the rebate amount paid by the
                  manufacturer to State Medicaid agencies, incorrect drug categorizations
                  could reduce Medicaid drug rebates paid to States. We found that for
                  the purposes of Medicaid drug rebates, manufacturers typically
                  categorize their drugs in the same way as national compendia. In other
                  words, most drug categorizations used to calculate Medicaid rebates
                  appear to be correct.

                  However, in our manual review of 75 nonmatching NDCs, we identified
                  a potential problem involving unapproved drugs: Medicaid paid
                  $20 million in the fourth quarter of 2007 for 32 drugs that were not
                  approved by FDA. These products may not be currently eligible for
                  Federal payment under Medicaid because of their FDA approval status.
                  According to FDA, unapproved drugs pose a significant health risk
                  because they may not meet modern standards for safety, effectiveness,
                  quality, and labeling. Further, FDA has noted that many health care
                  providers may be prescribing unapproved drugs because they are
                  unaware of the drugs’ approval status.

                  Our manual review of 75 NDCs revealed eight instances in which
                  certain drugs appear to have been categorized incorrectly in the AMP
                  file, potentially resulting in a loss of rebates for States. Although total
                  Medicaid expenditures for these eight NDCs were relatively small
                  ($14 million in one quarter), manufacturers may still owe States that
                  reimbursed for these products higher rebates than the amounts that
                  States collected.

                  In both cases, the figures presented in our findings were limited to
                  drugs included in our manual review of 75 high-expenditure
                  nonmatching NDCs and are therefore likely to understate the actual
                  amount spent on all drugs that fit into each category. We will provide
                  CMS with a list of the drugs that we identified as being unapproved or
                  potentially miscategorized.

                  Finally, we were not able to compare categorizations for a large number
                  of NDCs, primarily because AMP data were missing. The lack of AMP
                  data would likely inhibit CMS from calculating unit rebate amounts in a


OEI-03-08-00300   A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   15
R     E C O      M M E N D A T                     I O N             S


                      timely manner. In these cases, States are responsible for collecting any
                      amounts that are owed.

                      To address the issues raised in this report, we recommend that CMS:

                      Work closely with FDA to identify any potentially problematic
                      Medicaid payments for drugs that have not been approved by FDA.

                      Work with manufacturers to determine the correct categorizations of
                      the drugs that we identified as being potentially miscategorized in the
                      AMP file and assist States in collecting any unpaid rebates that they are
                      owed.

                      Continue to explore and undertake a range of efforts to ensure that
                      drug manufacturers are submitting the required AMP data in a timely
                      manner, including collaborating with OIG on administrative remedies
                      for noncompliance.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its comments on the draft report, CMS did not indicate whether it
                      concurred with OIG’s three recommendations. However, CMS did note
                      that it has taken and will continue to take steps related to each of OIG’s
                      recommendations.

                      CMS responded to our recommendation on potentially unapproved
                      drugs by stating that it has worked and will continue to work closely
                      with FDA to identify potentially problematic Medicaid payments for
                      drugs that do not meet the definition of a covered outpatient drug for
                      the purposes of the Medicaid drug rebate program. CMS explained
                      that FDA provides it with information on unapproved drugs that may
                      be ineligible for coverage under the Medicaid drug rebate program.
                      CMS reviews that information and determines whether action should
                      be taken to remove these drugs from the list of covered drugs.

                      In its response to our recommendation on potentially miscategorized
                      drugs identified in the AMP file, CMS stated that it is contacting the
                      manufacturers for which OIG identified a potential problem with
                      drug categorizations. If CMS determines that a manufacturer has
                      miscategorized a drug and additional rebates are due, it will work
                      with that manufacturer to ensure that a revised categorization is
                      submitted so that the manufacturer can pay States appropriate
                      rebates. CMS also noted that it has been working with


    OEI-03-08-00300   A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   16
R     E C O      M M E N D A T                     I O N             S


                      manufacturers to correctly categorize drugs that manufacturers
                      themselves have identified as being misreported.

                      CMS responded to our recommendation on timely reporting of AMP
                      data by stating that it will continue to ensure that drug
                      manufacturers are submitting the required AMP data in a timely
                      manner. To that end, after each quarter, CMS contacts drug
                      manufacturers that have failed to submit timely AMP data to remind
                      them of their responsibilities and request that their data be
                      submitted immediately. In addition, on a quarterly basis, CMS
                      provides OIG with a list of drug manufacturers that have failed to
                      report timely data for two or more quarters in a four-quarter period
                      for further investigation and/or review. CMS states that OIG may
                      impose civil monetary penalties for manufacturers that appear on this
                      quarterly report and indicated that issuing these penalties would
                      assist in ensuring that drug manufacturers submit their required
                      pricing data in a timely manner.

                      We ask that CMS indicate in its final management decision whether
                      it concurs with each of our recommendations. Ongoing OIG work will
                      further evaluate CMS’s and FDA’s ability to identify and remove
                      drugs that may not be eligible for coverage under the Medicaid drug
                      rebate program. In addition, OIG is exploring potential actions
                      against manufacturers that fail to provide AMP data in a timely
                      manner.

                      The full text of CMS’s comments is provided in Appendix A.




    OEI-03-08-00300   A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   17
Δ       A P P E N D I X ~ A


      Agency Comments




                                                                                                                         ~ters for   Medicare & Medicaid Serv,ces

                                                                                                    (',   -.
                                                                                                                  )      200 Independence Avenue SW

                                                                                       2D09 MAY 19 PI: 12: /2 Washington, DC              20201


                                  MAY 1 8 2009                                                ;(.   .
                                                                                                GEI'IER /\L
                  DAT

                  TO:              Daniel R, Levinson
                                   Inspector General
                             C~lA~"b-0~
                  FROM:       Charlene Fnzzera
                                   Acting Administrator

                  S BJECT:         Office of Inspector General (OIG) Draft Report: 'Accuracy of Drug
                                   Categorizations for Medicaid Rebates" (OEI-03-08-00300)


                  Thank you for the opportunity to review and comment on the OIG Draft Report entitled
                  "Accuracy of Drug ategorizations for Medicaid Rebates" (OEI-03-08-00300), The purpose of
                  this report was to determine whether the drug categorizations used to calculate Medicaid rebate
                  are consistent with the categorizations listed in national compendia.

                  The OIG report pre ents findings that compare drug categorizations used to determine Medicaid
                  rebates to dJUg categorizations in two widely used national compendia. The rebate amount for a
                  drug is based on whether the drug is categorized as a ingle-source, innovator multi-source, or
                  non-innovator multiple-source drug product.

                  Drug categorizations in the fourth-quarter 2007 average manufacturer price (AMP) file were
                  compared to drug categorizations in two national compendia for more than 17,000 national drug
                  codes (N DCs). A manual revicw was conducted of the drug categori".ation for 75 non-matching
                  ND a sociatcd with high Medicaid expenditures using infomlation obtained from the Food
                  and Drug Administration's (FDA) Drug lnfonnation directories, FDA staff, and manufacturcr
                  Web sites. The report also dctermined lhe percentage of DCs with Medicaid utilization in the
                  fourth-quarter of 2007 that were not included ill that quarter' AMP file.

                  ror 90 percent of DCs, it was found that the drug categorizations in thc fourth-quarter 2007
                  AMP file were the same as the categorizations in thc national compendia. Drug categorizations
                  did not march for 10 percent of DCs, Overall these non-matching NDCs were a ociated with
                  3 percent of total fourth-quarter 2007 Medicaid expenditures for the DCs under review. A
                  manual review of75 high-expenditure non-matching DCs revealed that 32 NDCs were for
                  drugs that had not been approved by the rDA.

                  OIG Recommendation

                  The Centers for Medicare & Medicaid ervices (CM ) should work closely with the Food and
                  Drug Administration (FDA) to identify ally potentially problematic Medicaid payment for drugs
                  that have not be n approved by the FDA.




OEI-03-08-00300           A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S                                      18

A P P E N D             I X           ~          A          





                  I'age 2 - Daniel R. Levinson

                  CMS Response

                  The eMS has been and will continue to work closely with the FDA to identify potentially
                  problematic Medicaid paymcnts for drugs that do not meet the definition of a covered outpatient
                  drug for purposes of the Medicaid Drug Rebate Program (MDRP). FDA provides CMS with
                  information on unapproved drugs that may be ineligiblc for coverage under the MDRP, CMS
                  reviews that information and determines whether action should be taken to remove the drug.
                  CMS also works with the FDA to identify similar drugs that might also be ineligible for coverage
                  undcr the MDRE'. Thc FDA gencrally identifies a drug based on pharmaceutical ingredients, and
                  CMS identifics NDCs in the MDRJl that may contain those ingredicnts. Subsequently, these
                  products are also removed from the list of covered drugs in the MDRI' and CMS notifies States
                  and thc affected labelers of this action.

                  OIG Recommendation

                  CMS should work with manufacturers to determine the correct categorizations of the drugs that
                  we identified as being potcntially miscategori7..ed in the AMP filc and assist Statcs in collecting
                  any unpaid rcbates that they are owed.

                  CMS Response

                  Wc are pleased that the 010 found that almost all drugs were correctly classified. Nevertheless,
                  we want to ensure that manufacturers correctly repon their drug classification, and we are in the
                  process of contacting those manufacturers where the 010 has identified a potential problem. If
                  we determine that a manufacturer has miscategori7..cd a drug and additional rebates are due, we
                  will work with the manufacturer to ensure that a revised classification is submiued so that
                  manufacturers can pay States the appropriate rebates. We note that it is the manufacturer's
                  responsibility to submit data to eMS that reflects the FDA's approval process for the drug and
                  not to rely solcly on other infonnation such as that in the compendia.

                  We have also been working with manufacturers to correctly categorize drugs that have been
                  misreported. When a manufacturer identifies that a product has been miscategorized, we review
                  the product and detennine whether the manufacturer has identified the correct drug product
                  catcgory. If the drug is miscategorizcd, CMS requests that the manufacturer provide information
                  in support of a specific drug category, thc effective date of the change, and the financial impact
                  as a result of this change. CMS will then usc the FDA databases to determine the correct drug
                  category based on the FDA drug application number and verify that the NDC is listed in the
                  FDA National Drug Code Directory.

                  OIG Recommendation

                  CMS should continue to explore and undenake a nmge of efforts to ensure that drug
                  manufacturers are submitting the required AMP data in a timely manner. including collaborating
                  with the 010 on administrative remedies for noncompliance.




OEI-03-08-00300          A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   19

A P P E N D             I X           ~          A          





                  Page 3 - Daniell{, Levinson

                  eMS Response

                  The eMS will continue to ensure that drug manufacturers arc submitting the required AMI' data
                  in a timely manner, including collaborating with the DIG to notify them of instances of
                  manufacturcr noncompliance with respect to timely data submission. Currently, after each
                  quarterly data submission deadline, CMS contacts drog manufacturers that have failed to submit
                  timely pricing data to remind tbem of their data submission responsibilities and request that their
                  data be submitted immediately.

                  The CMS also includes data reporting status infonnation in the Drug Data Reporting System
                  application so that, upon logging into the application, labelers may identify what thc next
                  reporting due dates are and how much data the labeler has submitted and certilied (Le., whether
                  or not the labeler is oul ofcompliance with their data reporting requirements). In addition, on a
                  quarterly basis, CMS reports to the DIG the drug manufacturers that havc failed to report timely
                  data for two or more quarters in a four-quarter period for further investigation and/or review. It
                  is our understanding that the DIG may impose civil monctary penalties for the manufacturers that
                  appear on this quarterly report, and CMS believes that the issuance of such penalties would assist
                  further in ensuring that drug manufacturers submit their required pricing data timely.

                  The CMS would, again, like to thank the DIG for their efforts in reviewing the accuracy of drug
                  categorizations for Medicaid rebates. eMS will continue to work closely with the FDA 10 ensure
                  that manufacturers have correctly reported their drug classifications and that drug manufactures
                  are submitting the required AMP data in a timely manner. We have received the list of
                  manufacturers from the DIG and arc in the process of planning to contact those manufacturers
                  regarding polential drug misclltegorizalions. Furthermore, we will continue to collaborate with
                  the DIG regarding administrativc remedies for nOJlcompliance. eMS is committed to ensuring
                  the accuracy of drug categorizations and al1 Medicaid rebate data,




OEI-03-08-00300          A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   20

Δ    A AC
        P CP
           K KEN NNO ODW W
                         I L XLE ~ED ADG GM ME EN NT TS S
Δ     A P P E N D I X ~ B

                  This report was prepared under the direction of Robert A. Vito,
                  Regional Inspector General for Evaluation and Inspections in the
                  Philadelphia regional office, and David E. Tawes, Director,
                  Prescription Drug Pricing Unit.

                  Roman Strakovsky served as the lead analyst for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Edward Burley; other central office staff who contributed include
                  Lyn Killman.




OEI-03-08-00300   A C C U R A C Y O F D R U G C AT E G O R I Z A T I O N S F O R M E D I C A I D R E B A T E S   21
